TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Social Security and Medicare Taxes
                 Are Not Being Properly Assessed on Some
                  Tips and Certain Types of Wage Income



                                     March 30, 2007

                          Reference Number: 2007-30-062


 The Treasury Inspector General for Tax Administration (TIGTA) has designated this
 audit report as Limited Official Use pursuant to Chapter III, Section 2 of the Treasury
 Security Manual (TD P 71-10) entitled, “Limited Official Use Information and Other
 Legends.” Because this document has been designated Limited Office Use, it may be
 made available only to those officials that have a need to know the information
 contained within this report in the performance of their official duties. This report must
 be safeguarded and protected from unauthorized disclosure; therefore, all requests for
 disclosure of this report must be referred to the Disclosure Section within the Treasury
 Inspector General for Tax Administration Office of Chief Counsel.




                                    Limited Official Use




 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           Limited Official Use
                                Social Security and Medicare Taxes
                           Are Not Being Properly Assessed on Some Tips
                                and Certain Types of Wage Income


                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit, Small Business and Corporate Programs
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Roy E. Thompson, Lead Auditor
W. George Burleigh, Senior Auditor
Layne D. Powell, Information Technology Specialist




                                 Limited Official Use                                  Page 2
